               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-03655-84




  Combined Assessment Program 

            Review of the 

VA Salt Lake City Health Care System
         Salt Lake City, Utah 





February 25, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



                                               Glossary
                 CAP             Combined Assessment Program
                 HER             electronic health record
                 EOC             environment of care
                 Facility        VA Salt Lake City Health Care System
                 FPPE            Focused Professional Practice Evaluation
                 FY              fiscal year
                 LGBT            Lesbian, Gay, Bisexual, and Transgender
                 MEC             Medical Executive Committee
                 MH              mental health
                 NA              not applicable
                 NM              not met
                 OIG             Office of Inspector General
                 PRC             Peer Review Committee
                 PU              pressure ulcer
                 QM              quality management
                 RN              registered nurse
                 VHA             Veterans Health Administration
                 VISN            Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                  CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 9

  Coordination of Care ............................................................................................... 10

  Nurse Staffing ......................................................................................................... 12

  PU Prevention and Management ............................................................................ 13


Appendixes
  A. Facility Profile ....................................................................................................      15

  B. Strategic Analytics for Improvement and Learning ............................................                              16

  C. VISN Director Comments ..................................................................................                  19

  D. Facility Director Comments ...............................................................................                 20

  E. OIG Contact and Staff Acknowledgments .........................................................                            30

  F. Report Distribution .............................................................................................          31

  G. Endnotes ...........................................................................................................       32





VA OIG Office of Healthcare Inspections
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 18, 2013.

Review Results: The review covered six activities.          The facility’s reported
accomplishments were transitional housing for homeless veterans, a nurse residency
program, and health care equity leader status.

Recommendations: We made recommendations in all six of the following activities:
Quality Management: Consistently initiate and complete Focused Professional Practice
Evaluations. Gather data about observation bed use. Consistently perform continuing
stay reviews on at least 75 percent of patients in acute beds. Ensure the Blood
Transfusion Committee members from Surgery and Anesthesia Services attend
meetings.

Environment of Care: Ensure patient care areas are clean, and store clean and dirty
items separately. Remove expired medications and supplies from patient care areas.

Medication Management: Conduct and document patient learning assessments.
Ensure clinicians conducting medication education accommodate identified learning
barriers and document the accommodations made to address those barriers.

Coordination of Care: Identify aftercare needs, and include them in discharge planning
and discharge instructions. Ensure patients receive ordered aftercare services or
supplies within the ordered/expected timeframe. Assess patients’ and/or caregivers’
knowledge and learning abilities during the inpatient stay.

Nurse Staffing: Monitor the recently implemented staffing methodology.

Pressure Ulcer Prevention and Management: Perform and document a patient skin
inspection and risk scale upon discharge. Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Provide and document pressure ulcer education for patients at risk for and with
pressure ulcers and/or their caregivers. Consistently notify the wound care team when
an admitted patient has a skin risk of 14 or below.




VA OIG Office of Healthcare Inspections                                                             i
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 19–29, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 PU Prevention and Management

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
November 21, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                            1
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Program Review of the VA Salt Lake City Health Care System, Salt Lake City, Utah,
Report No. 10-03093-82, February 7, 2011).

During this review, we presented crime awareness briefings for 543 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and we
received 323 responses. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Transitional Housing for Homeless Veterans – Valor House
The facility, in partnership with the Housing Authority of Salt Lake City, dedicated the
new 72-bed Valor House to better serve veterans who are eligible for VA services and
are homeless or in imminent danger of becoming homeless. This transitional housing
can accommodate veterans for up to 24 months, with the goal of helping them achieve
independence. Facility staff provide ongoing support and case management. In
addition to the 72 beds (each in a private room with a bath), the Valor House includes a
front desk, an interior recreation area, a library, and 12 community kitchens. It also has
an outdoor patio with a basketball court.

Nurse Residency Program
The facility served as a pilot site for the VA post-baccalaureate nurse residency
program. This program allows for six new graduates to be selected as RN residents
and provides opportunities in supervised clinical experience and didactic learning that
focus on the development of organizational and leadership skills, a better understanding
of the nursing process and their role within, and a more in-depth review of specialized
clinical procedures. In addition, each cohort of residents must complete team
evidence-based projects. Five RN residents gained employment at the facility in
September 2013.

Health Care Equity Leader
In 2013, the facility was recognized as a leader in promoting equitable and inclusive
care for LGBT patients and their families. To achieve health care equity leader status,
the facility publicized to its patients and visitors through the patient handbook and
visitation signage VHA’s system-wide policies granting equal visitation to LGBT
individuals and prohibiting LGBT patient and employment discrimination.


VA OIG Office of Healthcare Inspections                                                            2
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     FPPEs for newly hired licensed independent        Twenty-eight profiles reviewed:
       practitioners were initiated, completed, and       Three FPPEs were not initiated.
       reported to the MEC.                               Of the 25 FPPEs initiated, 17 were not
                                                           completed.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
         appropriately privileged staff.
        Professional practice evaluation information
         was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


NM             Areas Reviewed (continued)                                      Findings
 X     Observation bed use met selected                    The facility did not gather observation bed
       requirements:                                        use data.
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          re-assessed timely.
 X     Staff performed continuing stay reviews on at       For the 1 month of continuing stay data
       least 75 percent of patients in acute beds.          available, less than 75 percent of acute
                                                            inpatients were reviewed. The facility did not
                                                            have continuing stay data for the remaining
                                                            11 months.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                      4
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Four quarters of the Blood Transfusion
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            Clinical representatives from Surgery and
          membership met at least quarterly to review      Anesthesia Services did not attend any of the
          blood/transfusions usage.                        four meetings.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are consistently initiated and completed.

2. We recommended that processes be strengthened to ensure that data about observation
bed use is gathered.

3. We recommended that processes be strengthened to ensure that continuing stay reviews
are consistently performed on patients in acute beds and that they are completed on at least
75 percent of acute care patients.

4. We recommended that processes be strengthened to ensure that members from Surgery
and Anesthesia Services attend Blood Transfusion Committee meetings.




VA OIG Office of Healthcare Inspections                                                                     5
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the medical and surgical intensive care, the two medical/surgical, and the acute
MH inpatient units. We also inspected the emergency department, the gastrointestinal
laboratory, a primary care clinic, and the radiology department. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 29 employee
training records (10 radiology employees, 10 acute MH unit employees, 5 Multidisciplinary
Safety Inspection Team members, and 4 occasional acute MH unit employees). The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.        Five of eight patient care areas were not
                                                           clean.
                                                          Two walls in MH had large stained areas.
 X     Infection prevention requirements were met.        In three of eight patient care areas, clean and
                                                           dirty items were not stored separately.
                                                          In two of eight patient care areas, we found
                                                           expired supplies.
 X     Medication safety and security requirements        We found expired medications in five of eight
       were met.                                           patient care areas and in the radiology
                                                           medication room.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                      6
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


NM             Areas Reviewed for Radiology                                     Findings
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                     7
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


NM      Areas Reviewed for Acute MH (continued)                                 Findings
       MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
       The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

5. We recommended that processes be strengthened to ensure that patient care areas are
clean and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that clean and dirty items are
stored separately and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that expired medications and
supplies are removed from patient care areas and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     8
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
 X     Clinicians conducted inpatient learning            Eleven patients (31 percent) did not have
       assessments within 24 hours of admission or         documented learning assessments.
       earlier if required by local policy.
 X     If learning barriers were identified as part of    Of the 13 patients with identified learning
       the learning assessment, medication                 barriers, EHR documentation did not reflect
       counseling was adjusted to accommodate the          medication counseling accommodation to
       barrier(s).                                         address the barriers for 12 patients.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that processes be strengthened to ensure that patient learning
assessments are conducted and documented and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                     9
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 35 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
 X    Patients’ post-discharge needs were identified, Patients’ post-discharge needs were not
      and discharge planning addressed the            addressed during discharge planning for:
      identified needs.                                Restricted/special diets—4 of 33 patients
                                                         (12 percent)
                                                       Wound care/dressing changes—12 of
                                                         15 patients
                                                       Prosthetics—four of six patients
 X    Clinicians provided discharge instructions to   Clinicians did not provide discharge instructions
      patients and/or caregivers and validated their  to patients and/or caregivers for:
      understanding.                                   Restricted/special diets—5 of 33 patients
                                                           (15 percent)
                                                       Wound care/dressing changes—9 of
                                                           11 patients
                                                       Prosthetics—four of six patients
 X    Patients received the ordered aftercare          Eleven of the 21 patients who had services or
      services and/or items within the                    supplies ordered did not receive them within
      ordered/expected timeframe.                         the ordered/expected timeframe.
 X    Patients’ and/or caregivers’ knowledge and       Thirteen of the 35 EHRs (37 percent) did not
      learning abilities were assessed during the        contain documentation that the patients’
      inpatient stay.                                    and/or caregivers’ knowledge and learning
                                                         abilities were assessed during the admission.
                                                       Twenty of the 22 applicable EHRs did not
                                                         contain documentation that patients’ and/or
                                                         caregivers’ knowledge and learning abilities
                                                         were assessed at the time that discharge
                                                         instructions were provided.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that aftercare needs are
identified and included in discharge planning and discharge instructions.

11. We recommended that processes be strengthened to ensure that patients receive ordered
aftercare services or supplies within the ordered/expected timeframe.



VA OIG Office of Healthcare Inspections                                                                    10
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


12. We recommended that processes be strengthened to ensure that patients’ and/or
caregivers’ knowledge and learning abilities are assessed during the inpatient stay.




VA OIG Office of Healthcare Inspections                                                                    11
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed relevant documents, and we conversed with key employees. The area marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
 X     The facility either implemented or reassessed      The facility did not fully implement VHA’s
       a nurse staffing methodology within the             staffing methodology until September 2013
       expected timeframes.                                when unit-based expert panels were formed.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

13. We recommended that nursing managers monitor the recently implemented staffing
methodology.




VA OIG Office of Healthcare Inspections                                                                    12
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


PU Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive PU prevention and management.6

We reviewed relevant documents, 21 EHRs of patients with PUs (10 patients with
hospital-acquired PUs, 10 patients with community-acquired PUs, and 1 patient with PUs at the
time of our onsite visit), and 10 employee training records. Additionally, we inspected one
patient room. The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       The facility had a PU prevention policy, and it
       addressed prevention for all inpatient areas
       and for outpatient care.
       The facility had an interprofessional PU
       committee, and the membership included a
       certified wound care specialist.
       PU data was analyzed and reported to facility
       executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were            Ten of the 20 applicable EHRs did not contain
       performed upon transfer, change in condition,     documentation that a skin inspection and risk
       and discharge.                                    scale were performed upon discharge.
 X     Staff were generally consistent in               In 13 of the 21 EHRs, staff did not
       documenting location, stage, risk scale score,    consistently document the location, stage, risk
       and date acquired.                                scale score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for PUs and
       for patients with PUs.
       Required activities were performed for
       patients determined to not be at risk for PUs.
       For patients at risk for and with PUs,
       interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s PU was not healed at
       discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
 X     The facility defined requirements for patient   Facility PU patient and caregiver education
       and caregiver PU education, and education on requirements reviewed:
       PU prevention and development was provided  For 10 of the 17 applicable patients at risk
       to those at risk for and with PUs and/or their     for/with a PU, EHRs did not contain
       caregivers.                                        evidence that education was provided.




VA OIG Office of Healthcare Inspections                                                                    13
                                    CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


NM              Areas Reviewed (continued)                                        Findings
       The facility defined requirements for staff PU
       education, and acute care staff received
       training on how to administer the PU risk
       scale, conduct the complete skin assessment,
       and accurately document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in PU patient rooms.
 X     The facility complied with any additional         Local Nursing Service policy on PU risk
       elements required by VHA or local policy.         management reviewed:
                                                          For 10 of the 15 applicable EHRs, staff did
                                                           not consistently notify the wound care team
                                                           when patients were at moderate risk to
                                                           develop PUs.

Recommendations

14. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale upon discharge and that compliance be
monitored.

15. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date PU acquired for all patients with
PUs and that compliance be monitored.

16. We recommended that processes be strengthened to ensure that acute care staff provide
and document PU education for patients at risk for and with PUs and/or their caregivers and that
compliance be monitored.

17. We recommended that processes be strengthened to ensure that staff consistently notify
the wound care team when an admitted patient has a skin risk of 14 or below.




VA OIG Office of Healthcare Inspections                                                                    14
                                 CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                               Appendix A


            Facility Profile (Salt Lake City/660) FY 2014 through
                               November 2013a
Type of Organization                                                                Tertiary
Complexity Level                                                                    1b-High complexity
Affiliated/Non-Affiliated                                                           Affiliated
Total Medical Care Budget in Millions (September 2013)                              $403.7
Number of:
    Unique Patients                                                                31,078
    Outpatient Visits                                                              141,926
    Unique Employeesb                                                              1,788
Type and Number of Operating Beds:
    Hospital                                                                       106
    Community Living Center                                                        N/A
    MH                                                                             15
Average Daily Census:
    Hospital                                                                       79
    Community Living Center                                                        N/A
    MH                                                                             13
Number of Community Based Outpatient Clinics                                        9
Location(s)/Station Number(s)                                                       Pocatello/660GA
                                                                                    Ogden/660GB
                                                                                    Ely/660GC
                                                                                    Roosevelt/660GD
                                                                                    Orem/660GE
                                                                                    St. George/660GG
                                                                                    Nephi/660GI
                                                                                    West Valley City/660GJ
                                                                                    Elko, NV/660GK
VISN Number                                                                         19




a
    All data is for FY 2014 through November 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  15
                                                             CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                                                           Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                             16
                                                   CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                   17
                                                                                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   RN turnover rate                                                                     A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           18
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       January 24, 2014

          From:        Director, Rocky Mountain Network (10N19)

       Subject: 	      CAP Review of the VA Salt Lake City Health Care
                       System, Salt Lake City, UT

             To: 	     Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. Thank 	you for the opportunity to respond to the proposed
          recommendations for the VA Salt Lake City Health Care System,
          Salt Lake City, Utah.
       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.
       3. If you have additional questions or need further information, please
          contact Aggie Worth, VISN 19 QMO at (303) 639-6984.




VA OIG Office of Healthcare Inspections                                                           19
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                         Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       January 23, 2014

          From:        Director, VA Salt Lake City Health Care System (660/00)

       Subject:        CAP Review of the VA Salt Lake City Health Care
                       System, Salt Lake City, UT

             To:       Director, Rocky Mountain Network (10N19)

       1. Thank you for the opportunity to submit responses to the proposed
          recommendations for the VA Salt Lake City Health Care System,
          Salt Lake City, Utah.

       2. I have reviewed and concur with the findings and recommendations in
          the draft report of the Office of the Inspector General Combined
          Assessment     Program     Review      conducted    the week     of
          November 18, 2013.

       3. Corrective action plans have 	been established, with some being
          already implemented, and target completion dates have been set for
          the remaining items as detailed in the attached report.

       4. Should you have any questions, please contact Nena Saunders,
          Associate Director, Quality and Safety, 801-582-1565, extension 4608.




        STEVEN W. YOUNG, FACHE
        Director




VA OIG Office of Healthcare Inspections                                                           20
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are consistently initiated and
completed.

Concur

Target date for completion: Actions have been in place since March 2013.

Facility response: For the past 10 months, since March 2013, the facility has had a
process in place which ensures FPPEs for newly hired independent practitioners are
consistently initiated and completed. Once a provider is credentialed and privileges are
approved, the Credentialing staff sends a letter to each new provider outlining the
individualized criteria which will be used to evaluate their performance at 90-days or
earlier in the cases determined to have close oversight. (New providers typically). The
Professional Standard Boards (PSB) minutes are structured to remind Service Chiefs of
pending FPPEs. Each meeting the Chairman of the PSB will call for the review of those
FPPEs which are due. The Service Chief has completed the evaluation of these
individualized data and present findings with a recommendation to the Professional
Standards Board. The Chief of Staff and the Director review each provider folder and
approve or disapprove the board’s recommendations.              The Chairman of the
Professional Standards Board draws each committee members’ attention to reviews
due at the next meeting.

The Credentialing and Privileging staff also have developed a tracking system which
include the name of the provider, service, date boarded through PSB/CEB, date of first
patient encounter & FPPE initiated, FPPE due date, FPPE completed and date it was
closed in committee.

Recommendation 2. We recommended that processes be strengthened to ensure that
data about observation bed use is gathered.

Concur

Target date for completion: Completed

Facility response: Observation bed data has consistently been gathered since
October 1, 2013 and will continue to be gathered and reported to Clinical Executive
Board.




VA OIG Office of Healthcare Inspections                                                           21
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Recommendation 3. We recommended that processes be strengthened to ensure that
continuing stay reviews are consistently performed on patients in acute beds and that
they are completed on at least 75 percent of acute care patients.

Concur

Target date for completion: April 1, 2014

Facility response: Another UM nurse was hired and began working
December 16, 2013. This additional FTE will increase the continuing stay reviews. One
additional FTE will be added to insure the facility can accomplish 75 percent of
continuing stay reviews on acute care patients.

Recommendation 4. We recommended that processes be strengthened to ensure that
members from Surgery and Anesthesia Services attend Blood Transfusion Committee
meetings.

Concur

Target date for completion: Completed December 16, 2013

Facility response: The Chief of Staff made new committee assignments from the
Surgery and Anesthesia department to serve on the Blood Transfusion Committee. The
Chief of Staff stressed the criticality of their consistent attendance. The Committee
policy has been modified to allow for virtual attendance via telephone or v-tel if needed.
The Blood Transfusion Committee meets quarterly and reports to the Clinical Executive
Board quarterly. Attendance of these 2 services will be monitored by the Chief of
Quality Management for the next year.

Recommendation 5. We recommended that processes be strengthened to ensure that
patient care areas are clean and that compliance be monitored.

Concur

Target date for completion: April 1, 2014

Facility response: Using ISSA housekeeping staffing standards (adopted by VACO)
the facility will recruit and hire 10 additional staff. Supervisor staff will insure compliance
and cleanliness are monitored at least twice per week. Nursing staff will be responsible
to maintain equipment cleanliness and a campaign to bring awareness to these
responsibilities has begun. The campaign, taken from the comments of one of our
surveyors is titled “Don’t Stop at the Top” urging bases of equipment, stretchers; scales
have a routine cleaning schedule. Nurse Managers will be responsible to monitor
cleanliness of equipment and report monthly to Quality Management. Weekly
environment of care rounds are conducted throughout the facility and the CBOCs
insuring a comprehensive inspection at least every six months is conducted at each
facility department and CBOC location.



VA OIG Office of Healthcare Inspections                                                           22
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Recommendation 6. We recommended that processes be strengthened to ensure that
clean and dirty items are stored separately and that compliance be monitored.

Concur

Target date for completion: June 1, 2014

Facility response: A multidisciplinary team has been convened to conduct a full
inventory of clean/dirty spaces in the facility. Original facility design delineated full
separate spaces for strict clean and dirty rooms. Over time and without authority rooms
were designated for other use. The multi-disciplinary team will conduct an inspection of
each clinical area, consulting original design drawings and designated clean and dirty
rooms will be re-claimed for the original planned use. The full inspection will be
conducted by March 15, 2014 and reclamation of the space that has been assigned to
another function will occur by June 1, 2014.

Recommendation 7. We recommended that processes be strengthened to ensure that
expired medications and supplies are removed from patient care areas and that
compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: Clinical managers have developed systems within their departments
to insure no expired medications and supplies are in the inventory. Managers will be
assigning particular areas within the department to individual staff members for insuring
medications and supplies are inventoried monthly and expiring products are removed
from inventory. Monthly reports will be provided to the Quality Manager for compliance
monitoring. Participants on Environment of Care rounds will inspect weekly for outdated
supplies and medications. Noncompliance will be reflected in employee evaluations.

Recommendation 8. We recommended that processes be strengthened to ensure that
patient learning assessments are conducted and documented and that compliance be
monitored.

Concur

Target date for completion: April 1, 2014

Facility response: Staff have been re-educated on this requirement. Compliance
reports will be collected by the Quality Manager through an electronic report. Once
these reports are made available we will be able to target particular providers who are
not completing learning assessments and work individually with them.




VA OIG Office of Healthcare Inspections                                                           23
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: April 1, 2014

Facility response: Staff have been re-educated on this requirement and the
documentation requirements. Thirty records per month will be reviewed for compliance
within the quality department and reported to the Clinical Executive Board.

Recommendation 10. We recommended that processes be strengthened to ensure
that aftercare needs are identified and included in discharge planning and discharge
instructions.

Concur

Target date for completion: March 1, 2014

Facility response: The Discharge Brochure will be updated by March 1, 2014 and
provided to all patients upon admission to an acute care unit. This brochure includes
information regarding the discharge process and the importance of communication
among patients, family and staff to ensure patient needs are met. It also includes
hospital address and phone number and a discharge checklist for the patients. Nursing,
social work, pharmacy and dietary are involved in this revision.

Improved Discharge Instructions – Both medicine and surgery are updating their
discharge instructions. Nurse Physician Liaisons and Pharmacy are involved in
reformatting instructions for better readability. In the past, the medication section was
confusing for patients. Improvements will include a user friendly medication list
(displayed after med reconciliation). Process will allow last minute medication changes
to be incorporated. There will also be a box at the bottom of the instructions that
providers can click stating that “Patient has medications in the pharmacy.”

Interdisciplinary Discharge Meeting – In addition to daily patient rounds, the surgery
interdisciplinary team meets every Wednesday to review status/needs of all patients on
the Acute Surgery Unit and those discharging directly from SICU. The medicine
interdisciplinary team meets every Monday and Thursday to review status/needs of all
patients discharging from Acute Medicine, Telemetry, and MICU.

Post Discharge Telephone Contact – Staff continue to improve the utilization of
information provided by post discharge calls. Questions asked during these calls, which
are made within 48 hours of discharge, cover many topics including whether or not
patient received discharge instructions, medications, and equipment. If patient has any
concerns, they are answered at the time of the call or forwarded to the appropriate



VA OIG Office of Healthcare Inspections                                                           24
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


person for follow-up.    In addition, individuals making post discharge calls are
encouraged to contact the unit manager if any concerning trends are noted.

Recommendation 11. We recommended that processes be strengthened to ensure
that patients receive ordered aftercare services or supplies within the ordered/expected
timeframe.

Concur

Target date for completion: April 1, 2014

Facility response:

Prosthetics and Sensory Aid Service (PSAS) – PSAS developed an SOP for the receipt
of consults and durable medical equipment (DME) and supplies used in the home. All
staff has been educated on the SOP.

Infusion Service – Infusion nurses meet weekly with our two contract home pharmacies
and review every patient. This provides them updates on patient progress and gives us
the opportunity to review patients to ensure that they are receiving the care that is
needed and was ordered. Additionally, our process involves the contract home
pharmacies contacting us when they receive each new referral. Prior to them
contacting us they coordinate with the assigned home health agency.

This process gives us multiple opportunities to validate that the patient is receiving the
ordered care while also providing us with feedback about potential additional needs.
Revisions are made to Home IV Therapy referrals based on changes in patient
condition, changes in ordered therapy, and evaluation of our partner home health
nursing agencies and contract home pharmacies.

Home Health agency – We have developed and are piloting a new process for using
electronic communication to improve the timeliness and accuracy of information
exchange with home health agencies that are contracted to care for Veterans. This
process removes the need for any paper, mail, or faxed based communication by using
a direct secure email system that incorporates care plans directly into the electronic
medical record. We are also developing requirements and working with a Federally
Funded Research Development Center to pilot a more advanced system of
communication that would use a secure internet based communication system to certify
and update home health care plans. 

Post Discharge Telephone Contact – Staff continue to improve the utilization of
information provided by post discharge calls. Questions asked during these calls, which
are made within 48 hours of discharge, cover many topics including whether or not
patient received discharge instructions, medications, and equipment. If patient has any
concerns, they are answered at the time of the call or forwarded to the appropriate
person for follow-up.     In addition, individuals making post discharge calls are
encouraged to contact the unit manager if any concerning trends are noted.



VA OIG Office of Healthcare Inspections                                                           25
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


All processes will be monitored and reported to the Quality Manager. The Quality
Manager will provide a quarterly report of OIG findings and progress to the Executive
Board.    The initial report (Quarter 3: April–May–June) will be due to Quality
Management by July 15, 2014 and reported to the next regularly scheduled Executive
Board within one month.

Recommendation 12. We recommended that processes be strengthened to ensure
that patients’ and/or caregivers’ knowledge and learning abilities are assessed during
the inpatient stay.

Concur

Target date for completion: March 1, 2014

Facility response:

Standardizing assessment tool used by providers – Medical Staff leadership are
evaluating tools/methods of assessing inpatients for decision making capacity. A
standardized approach will be implemented by March 1, 2014 and monthly monitoring
for compliance will be conducted and reported to the Executive Board.

Nursing Admission Assessment – The admission assessment used by all inpatient
nurses will be improved to include additional mandatory fields that will specifically
address patient’s knowledge and learning abilities. Automatic consult options (low
vision, audiology, etc) will be added to assessment template to maximize
expertise/resources available for patient learning. Specialty services will provide
education to nurses to ensure that the consults are appropriate.

Recommendation 13. We recommended that nursing managers monitor the recently
implemented staffing methodology.

Concur

Target date for completion: July 31, 2014

Facility response: Since Sept 2013, we’ve had the Unit Based panels in place, all
panel members have completed TMS (Talent Management System) training, and the
members have been meeting monthly with the FEP (Facility Expert Panel) to learn the
process and discuss staffing issues. We will begin the 2014 6-month data collection
phase in February 2014–July 2014.

Recommendation 14. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale upon
discharge and that compliance be monitored.

Concur

Target date for completion: March 1, 2014


VA OIG Office of Healthcare Inspections                                                           26
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


Facility response: The facility is taking a 4-prong approach including Documentation
structure, staff education, monitoring and support of performance.

Documentation – To ensure that nurses assess patient and document Braden Skin
Assessment at least every 24 hours, the Braden Scale will be made a mandatory field in
all inpatient nursing shift assessments.

Shift assessment on day of discharge templates will include complete skin assessment,
risk scale and, if pressure ulcer is present, documentation of PU stage, measurement,
and wound bed description. This template will be embedded into the nursing
assessment.

Education – Enterostomal Therapy (ET) Nurses will provide education to staff on
Braden scale and how to assess patient risk. This education will be available during
nursing orientation period and at unit staff meetings.

By February 15, 2014, laminated posters with best practices for preventing pressure
ulcers will be distributed to inpatient nursing break rooms.

Enterostomal Therapy Nurses will provide Skin Champions with a checklist to be used
to detail the type of wound assessment and documentation needed upon admission and
discharge, and also when staging and measuring a pressure ulcer. Nurses will
document that the pressure ulcer prevention handout was given and reviewed with the
patient at the time of discharge.

Reporting/Monitoring – Monday–Friday, data warehouse will provide a daily report to
Nurse Managers listing patients who have not had a Braden Scale completed in past
24 hours. Nurse Managers will follow up with nurse who should have completed
Braden Skin and Risk assessment and nurse caring for the patient that day. They will
ensure that the Braden scale is completed promptly. Nurse Managers or designee will
perform spot audits on patients discharged to assess for compliance with Braden skin
and risk assessments.      For all patients with documented pressure ulcers, an
Enterostomal Therapy consult for outpatient follow-up will be generated by discharging
nurse.

Recommendation 15. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date PU
acquired for all patients with PUs and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: A 4-prong approach is being taken to strengthen staff
documentation, compliance monitoring and support.

Education/Documentation – All pressure ulcers will need a 2 person confirmation to
ensure accuracy. Each unit will have at least 2 Skin Team Champions (STC) to assist


VA OIG Office of Healthcare Inspections                                                           27
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


with education dissemination. The STC will be part of the hospital Skin Team and will
attend monthly team meetings. When the nurse identifies a wound as a pressure ulcer,
the STC will confirm the pressure ulcer, staging, measurement, wound description, risk
assessment, prevention interventions, treatment, and note date PU acquired (i.e. either
community or hospital acquired). The STC will co-sign the note to confirm the diagnosis
of a pressure ulcer.

If the STC is not available then the discovering nurse will contact Enterostomal Service
for confirmation. On off tours, nursing will document as “wound” until confirmation can
be done at earliest opportunity by STC or Enterostomal Therapy Nurse. On the
designated day (per week) the STC will, with the bedside nurse, review the pressure
ulcer including measurements, wound description, risk assessment interventions
planned and completed, and treatment. Additionally, patient or caregiver education will
be documented.

Monitoring – Enterostomal Service will monitor daily VANOD (VA Nursing Outcomes
Database) skin reports for all patients identified with a pressure ulcer. Enterostomal
Service will review weekly documentation for all patients with pressure ulcers for
completeness. If documentation is incomplete, the Enteorstomal Service will contact
STC to rectify. If the documentation is in error (i.e. pressure ulcer identified one day but
is misdiagnosed the next day), the Enterostomal Service will notify the Nurse Manager
to take corrective action by having an addendum skin assessment added to incorrect
note correcting documentation. Enteorstomal Service will work with VANOD nurse and
CACs (Clinical Application Coordinators) to correct Health Factors.

Reporting – Enterostomal Service will provide a monthly report to Associate Director
Patient Care Services and each Nurse Manager with the number of pressure ulcers on
each unit, documentation accuracy and completeness. This unit information will also be
posted for the nursing staff to facilitate benchmarking and improvement efforts.
Enterostomal Service will review compliance with PU identification, documentation and
tracking in the monthly Skin Team meeting.

Support      –    Enteorstomal     Service    will provide    STC      education                and
certification.Enterstomal Service to provide documentation template for STC use.

Recommendation 16. We recommended that processes be strengthened to ensure
that acute care staff provide and document PU education for patients at risk for and with
PUs and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response:

Education/Documentation – During hospitalization, daily interventions will be identified
and documented as completed by the nursing staff. There will be documentation



VA OIG Office of Healthcare Inspections                                                           28
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT


evidence in the medical record that preventive interventions were reviewed with the
patient.

Compliance will be documented. Weekly documentation of interventions and patient
education is also found with the STC (Skin Team Champion) assessment.

Monitoring Plan – STC will review active inpatient education for those patients with
known Pressure Ulcers. Review will include current interventions, completion of
interventions and education of the patient and or caregiver as to the need and
continuance of those interventions.

Recommendation 17. We recommended that processes be strengthened to ensure
that staff consistently notify the wound care team when an admitted patient has a skin
risk of 14 or below.

Concur

Target date for completion: March 1, 2014

Facility response:

Consultation/Education – Nursing will initiate an Enterostomal consult for all patients
with a Braden risk score of 14 and below. Enterostomal Service will respond to consult
with a bedside patient review with the bedside nurse. Together a care plan will be
made and documented by the bedside nurse in the VANOD (VA Nursing Outcomes
Database) skin assessment. Enterostomal Service will also document encounter with a
Point of Care note to be co-signed by the bedside nurse, the Nurse Manager, and the
Skin Champion.

Monitoring – Enterostomal Service will monitor daily skin reports for patients with a
Braden risk score 14 or lower. If there is a patient with a risk score 14 or lower and
Enterostomal Service has not been notified, Enteorstomal Service will alert Nurse
Manager of discrepancy. Enteorstomal Service will then review patient at bedside with
bedside nurse to formulate care plan. The bedside nurse at that time will place the
Enterostomal consult. Nurse Manager will provide 1:1 education/counseling for staff
non-compliant with ET consultation.

Reporting – Enterostomal Service will provide a monthly report on compliance of
consults for patients with Braden risk scores of 14 or lower. Intervention and education
will be reported as noted above in recommendation 14, 15 and 16.




VA OIG Office of Healthcare Inspections                                                           29
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Simonette Reyes, RN, Team Leader
Contributors 	          Daisy Arugay, MT
                        Donald Braman, RN
                        Paula Chapman, CTRS
                        Chad Joy, Special Agent
                        Yoonhee Kim, PharmD
                        Kathleen Shimoda, BSN
                        Jovie Yabes, RN
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           30
                           CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, VA Salt Lake City Health Care System (660/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Orrin G. Hatch, Mike Lee
U.S. House of Representatives: Rob Bishop, Jason Chaffetz, Jim Matheson,
 Chris Stewart


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           31
                                  CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT
                                                                                                Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            32
                                  CAP Review of the VA Salt Lake City Health Care System, Salt Lake City, UT



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National PU Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
    November 2012.




VA OIG Office of Healthcare Inspections                                                                  33
